HHS/OIG, Audit -"Audit of the State of Massachusetts' Costs and Reporting of Funds Under the Public Health Preparedness
and Response to Bioterrorism Program for the Period August 31, 1999 - August 30, 2004,"(A-01-04-01503)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of the State of Massachusetts' Costs and Reporting of Funds Under the Public Health Preparedness and Response
to Bioterrorism Program for the Period August 31, 1999 - August 30, 2004," (A-01-04-01503)
March 4, 2005
Complete
Text of Report is available in PDF format (159 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this audit were to determine whether the State recorded and reported CDC bioterrorism preparedness program
funds awarded, expended, obligated, and unobligated by focus area in accordance with the cooperative agreement; ensured
that bioterrorism preparedness program funds were used for necessary, reasonable, allocable, and allowable costs in accordance
with the terms of the cooperative agreement; and supplanted current State or local funding with bioterrorism preparedness
program funds.  The State recorded and reported bioterrorism preparedness program funds by focus area in accordance
with the cooperative agreement.  We found no evidence of any unreasonable, unnecessary, unallocable or unallowable
costs.  In addition, we found no evidence of supplanting of State or local expenditures with Federal bioterrorism
preparedness program funds.  We noted that, as of August 30, 2004, the State had cumulative unobligated funds totaling
$11,036,536, or 24 percent of the $45,592,117 awarded and recommended that the State monitor its bioterrorism funding to
minimize unobligated fund balances and to ensure that program goals are met in a timely manner.